HHS/OIG, Audit -"Review of Nonqualified Defined-Benefit Pension Plan Costs Claimed
by Veritus, Inc. for Fiscal Years 1996 Through 1997,"(A-07-06-00200)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Nonqualified Defined-Benefit
Pension Plan Costs Claimed by Veritus, Inc. for Fiscal Years 1996 Through 1997," (A-07-06-00200)
January 20, 2006
Complete
Text of Report is available in PDF format (288 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine the allowability of Excess Benefit Plan (EBP) costs Veritus
claimed for Medicare reimbursement for fiscal years (FY) 1996 through 1997. We found that
Veritus underclaimed $23,728 in allowable EBP costs for FYs 1996 through 1997 because it
did not claim all of the allowable EBP costs allowed by the Cost Accounting Standards (CAS).
Veritus claimed EBP costs of $6,079 for Medicare reimbursement; however, the allowable EBP
costs were $29,807. We recommended that Veritus revise its Final Administrative Cost Proposals
for FYs 1996 through 1997 or submit a claim for additional allowable EBP costs of $23,728.
The aduditee agreed with our recommendation.